                        U.S. Department of Agriculture

                           Office of Inspector General
                                       Midwest Region




              Audit Report

Adequacy of Controls to Prevent the Improper
     Transfer of Sensitive Technology




                               Report No. 02601-1-Ch
                                  SEPTEMBER 2005
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                       Washington D.C. 20250




September 30, 2005

REPLY TO
ATTN OF:      02601-1-Ch

TO:           Edward B. Knipling
              Administrator
              Agricultural Research Service

ATTN:         Steven M. Helmrich
              Division Director
              Financial Management Division

FROM:         Robert W. Young /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Adequacy of Controls to Prevent the Improper Transfer of Sensitive Technology


This report presents the results of our audit of the Adequacy of Controls to Prevent the Improper
Transfer of Sensitive Technology. Your agency’s response to the draft report, dated
September 15, 2005, is included in its entirety as exhibit B, with excerpts and the Office of
Inspector General’s position incorporated into the relevant sections of the report.

We agree with your management decisions for Recommendations 1, 2, 3, and 5. Please follow
your agency’s internal procedures in forwarding final action correspondence to the Office of the
Chief Financial Officer.

Management decision has not been reached for Recommendations 4, 6, 7, 8, 9, 10 and 11. The
Findings and Recommendations sections of the report include a description of the information
needed to reach management decisions for these recommendations.

In accordance with the Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementing these
recommendations. Please note that the regulation requires a management decision to be reached
on all findings and recommendations within a maximum of 6 months from report issuance, and
final action to be taken within 1 year of each management decision.

We appreciate the courtesies and cooperation extended to us by your staff.
Executive Summary

Results in Brief   This report presents the results of our audit of the Agricultural Research
                   Service’s (ARS) efforts to prevent the improper transfer of sensitive
                   technology to questionable individuals and entities. Our objective was to
                   evaluate the agency’s management controls in this critical area. Specifically,
                   we evaluated controls over the identification, approval, and monitoring of
                   sensitive research, as well as controls to ensure that sensitive knowledge had
                   not been transferred to questionable individuals. We also evaluated the
                   agency’s compliance with U.S. Department of Commerce (DOC) deemed
                   export license requirements.

                   Our audit disclosed that ARS’ management controls need enhancement to
                   prevent the transfer of sensitive knowledge to hostile individuals or countries.
                   Of greatest concern, ARS officials have not identified which of its research
                   projects are sensitive or dual use—that is, which projects involve specialized
                   knowledge that could be exploited by questionable individuals, such as
                   bioterrorists. ARS, as well as other Federal agencies, have not identified
                   such research because there are no established Government-wide criteria.
                   The Government’s scientific community has recognized this deficiency, and
                   the National Institutes of Health created the National Science Advisory Board
                   for Biosecurity (the Board) to tackle this and other biosecurity issues. The
                   Board is scheduled to convene on June 30, 2005, but has not established
                   timeframes for issuing guidance.

                   ARS officials, however, cannot afford to wait for the Board’s guidance to
                   begin identifying dual-use research and monitoring it appropriately. The
                   danger that the agency will unintentionally provide hostile individuals or
                   groups with unique knowledge—including techniques for manipulating select
                   biological agents—presents too great of a risk to national security. Thus,
                   ARS officials need to immediately establish criteria to define dual-use
                   research projects, to approve those projects in light of their destructive
                   potential, and to monitor those projects on an ongoing basis.

                   ARS officials also do not check the backgrounds of all non-Government
                   scientists working on research projects involving sensitive knowledge. In
                   fact, ARS was unaware of the number of non-Government scientists currently
                   working on such projects. Our inquiries revealed that at least 130 non-
                   Government scientists, whose backgrounds were unknown, were working on
                   only 10 of the sensitive research projects we reviewed. Agency officials
                   informed us that they had not obtained the detailed personal information
                   necessary to perform security suitability determinations primarily because of
                   concern that non-Government scientists would be deterred from participating
                   in collaborative research. They added that the agency had no policy and
USDA/OIG-A/02601-1-Ch                                                                       Page i
                   procedures for maintaining the names of all collaborating non-Government
                   scientists. As a result, non-Government scientists with questionable
                   backgrounds may be able to obtain unique knowledge about select biological
                   agents and other sensitive scientific research through collaboration with the
                   agency.

                   We also found that ARS officials post sensitive information—including the
                   names and locations of scientists working with select agents—on the Internet,
                   where it is easily accessible by the public. We concluded that this practice
                   conflicts with USDA regulations, which require agencies to define, identify,
                   and protect sensitive security information. Our examination of ARS’ website
                   and the Current Research Information System, a public database used by
                   ARS, disclosed detailed descriptions of experiments and results for 224
                   ongoing research projects involving select agents. (There were over 3,400
                   ongoing research projects as of October 2004.)

                   The ARS website also included abstracts of scientific manuscripts dealing
                   with dual-use research. Although the scientific community values the open
                   exchange of research information and results, we concluded that some of the
                   technical data that ARS includes online could be manipulated for destructive
                   purposes.

                   Finally, although ARS scientists routinely share sensitive information with
                   foreign scientists, some from countries of concern, the agency had not applied
                   for deemed export licenses issued by the DOC, which controls the transfer of
                   such information between the United States and other nations. ARS officials
                   had not developed policy and procedures to apply for deemed export licenses
                   for controlled information.

                   ARS research offers solutions to a variety of agricultural problems, ranging
                   from animal and plant diseases to human nutrition. Unfortunately, while
                   ARS is devoted to pursuing beneficial advances in research, other parties and
                   individuals may be attempting to harness that research for harmful purposes.
                   Thus, in pursuing its valuable scientific work, ARS officials must consider—
                   and work to prevent—the potential negative applications of the specialized
                   knowledge it uses and creates.

Recommendations
In Brief           We recommend that ARS officials develop policy and procedures to
                   (1) identify, approve, and monitor dual-use research projects; (2) perform
                   suitability determinations, based on a risk analysis, of non-Government
                   scientists involved in sensitive research projects; and (3) submit deemed
                   export license applications to DOC prior to initiating sensitive research
                   projects with foreign scientists. We also recommend that ARS officials
                   develop criteria for identifying sensitive security information and implement
                   procedures to ensure that this information is not posted on the Internet.
USDA/OIG-A/02601-1-Ch                                                                     Page ii
Agency Response    In its response dated September 15, 2005, ARS officials generally agreed
                   with all but three recommendations in the report. We have incorporated
                   applicable portions of ARS’ response, along with our position, in the
                   Findings and Recommendations section of the report. The agency’s response
                   is included in its entirety as exhibit B of the report.

OIG Position       We generally agree with ARS’ response and have reached management
                   decision on four of the recommendations (1, 2, 3, and 5). In order to reach
                   management decision for four of the recommendations (6, 7, 8, and 11), ARS
                   needs to provide timeframes for completion of the corrective actions. We
                   disagreed with ARS’ response to three of the recommendations (4, 9, and 10).
                   Management decisions can be reached for these three once we receive the
                   information specified in the report sections OIG Position.




USDA/OIG-A/02601-1-Ch                                                                  Page iii
Abbreviations Used in This Report

APHIS             Animal and Plant Health Inspection Service
ARS               Agricultural Research Service
BSL               Biosafety Level
CDC               Centers for Disease Control
CRIS              Current Research Information System
DOC               U.S. Department of Commerce
EAR               Export Administration Regulations
HHS               U.S. Department of Health and Human Services
NIH               National Institutes of Health
NRC               National Research Council
Board             National Science Advisory Board for Biosecurity
OIG               Office of Inspector General
rDNA              Recombinant deoxyribonucleic acid
SSI               Sensitive security information
USDA              U.S. Department of Agriculture




USDA/OIG-A/02601-1-Ch                                               Page iv
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Identifying, Approving, and Monitoring Sensitive Research ...................................... 3

        Finding 1             ARS Needs To Identify, Thoroughly Review, and Monitor Dual-Use
                              Research Projects .................................................................................................... 3
                                  Recommendation 1 .......................................................................................... 6
                                  Recommendation 2 .......................................................................................... 7
                                  Recommendation 3 .......................................................................................... 7
                                  Recommendation 4 .......................................................................................... 8
                                  Recommendation 5 .......................................................................................... 8

    Section 2. Transfer of Sensitive Information................................................................................ 10

        Finding 2             ARS Does Not Check All Non-Government Scientists for Security
                              Suitability .............................................................................................................. 10
                                   Recommendation 6 ........................................................................................ 12
                                   Recommendation 7 ........................................................................................ 13
                                   Recommendation 8 ........................................................................................ 13
        Finding 3             ARS Makes Sensitive Research Information Available to the Public on the
                              Internet .................................................................................................................. 14
                                   Recommendation 9 ........................................................................................ 16
                                   Recommendation 10 ...................................................................................... 16

    Section 3. Deemed Export Licenses ............................................................................................... 18

        Finding 4             ARS Shares Sensitive Information with Foreign Scientists Without
                              Applying for Deemed Export Licenses................................................................. 18
                                 Recommendation 11 ...................................................................................... 20

Scope and Methodology........................................................................................................................ 21

Exhibit A – APHIS and CDC List of Select Agents........................................................................... 22
Exhibit B – Agency Response............................................................................................................... 23

Glossary of Terms ................................................................................................................................. 28


USDA/OIG-A/02601-1-Ch                                                                                                                            Page v
Background and Objectives
Background         The Agricultural Research Service (ARS) conducts scientific research to
                   develop, and transfer to the public, solutions to agricultural issues of a high
                   national priority. ARS administers its programs through its National offices
                   in Washington, D.C., and Beltsville, Maryland. The National offices and
                   8 area offices monitor ARS research activities at 11 research centers,
                   5 human nutrition centers, and 243 laboratories in 113 locations, including
                   Argentina, China, France, and Australia.

                   ARS generally performs research on animal and plant diseases and pest
                   problems. This research can include the use of biological agents—living
                   organisms in their microbial form that are generally pathogenic, or disease
                   producing, to some degree. Some of ARS’ research projects involve select
                   agents, a group of infectious biological agents that USDA’s Animal and Plant
                   Health Inspection Service (APHIS) and the Centers for Disease Control
                   (CDC) have determined most seriously threaten human, animal, and plant
                   health. (See exhibit A.) Some of these pathogens, such as Bacillus anthracis
                   (anthrax) and avian influenza virus, are regarded as zoonotic⎯that is, able to
                   cause disease, even death, in both animals and humans.

                   Through formal collaborative agreements, ARS scientists frequently share
                   knowledge with research partners from universities, private companies, non-
                   profit organizations, and other countries to solve agricultural issues. ARS
                   scientists also collaborate informally with non-Government scientists on ARS
                   in-house research projects.

                   The “Dual-use Dilemma”

                   In 2003, the National Academy of Sciences reported that knowledge
                   generated by biotechnology research, while greatly benefiting society, also
                   poses a threat in that it could be used to create the next generation of
                   biological weapons. The Academy called this the “dual-use dilemma,” in
                   which the same knowledge could be used legitimately for human betterment
                   and misused for bioterrorism. The risk is that research results, knowledge, or
                   techniques could facilitate the creation of novel pathogens with unique
                   properties, or the creation of entirely new classes of threat agents.

                   Export Requirements

                   ARS research is subject to the U.S. Department of Commerce (DOC) Export
                   Administration Regulations (EAR) for exports to foreign countries, as well as
                   exports to foreign nationals inside the United States. An export is a shipment
                   of materials out of the United States. In addition, any release of technology,
                   including the transfer of technical knowledge, or source code subject to the
                   EAR, to a foreign national, is deemed to be an export to the home country or
USDA/OIG-A/02601-1-Ch                                                                      Page 1
                   countries of the foreign national. A deemed export license may not be
                   required if the research being conducted is “fundamental research.”
                   Fundamental research is defined as basic and applied research where the
                   resulting information is published and shared broadly within the scientific
                   community.

                   The DOC Office of Inspector General (OIG) recently reviewed deemed
                   export applications from several Federal agencies and concluded that there is
                   a lack of understanding regarding the applicability and requirements of export
                   regulations as they apply to deemed exports. This lack of understanding
                   could result in a loss of technology to inappropriate end users. DOC OIG
                   found instances where the Departments of Commerce, Defense, and
                   Transportation may be noncompliant with deemed export regulations. DOC
                   OIG did not include USDA in its review.

Objectives         Our objective was to evaluate agency controls over the transfer of sensitive
                   (dual-use) technology to the public. Specifically, we determined if ARS
                   (1) adequately identified, approved, and monitored sensitive research;
                   (2) identified scientists working on the projects and ensured that sensitive
                   knowledge had not been transferred to unscrupulous individuals; and
                   (3) complied with DOC’s deemed export license requirements.




USDA/OIG-A/02601-1-Ch                                                                     Page 2
Findings and Recommendations
Section 1. Identifying, Approving, and Monitoring Sensitive Research



Finding 1           ARS Needs To Identify, Thoroughly Review, and Monitor Dual-
                    Use Research Projects

                    ARS officials had not identified which of its more than 3,400 ongoing
                    research projects are sensitive, or “dual use,” in nature—that is, projects
                    involving specialized knowledge that could be used for both beneficial and
                    harmful purposes. This situation exists because ARS officials had not
                    established criteria to define dual-use research, nor has it developed
                    procedures to identify, approve, and monitor research projects meeting the
                    criteria. As a result, in the course of conducting research intended to benefit
                    society, ARS may be unintentionally providing questionable individuals or
                    groups with knowledge—including techniques for manipulating select
                    biological agents—that could be used for illicit purposes.

                    Government-wide, no legislation or regulations exist requiring agencies to
                    define, identify, approve, or monitor dual-use research. Developing such
                    requirements is a complicated and controversial matter, as both Government
                    and private sector researchers are concerned that restrictions on the flow of
                    information could impede scientific advancements. Despite these concerns,
                    the scientific community has recognized the need for guidance in this area.
                    The National Institutes of Health (NIH), an agency of the U.S. Department of
                    Health and Human Services (HHS), has convened an advisory board to
                    undertake the task of providing advice, guidance, and leadership regarding
                    biosecurity of dual-use research. However, it could be several years before
                    guidance on dual-use research is available to the scientific community.

                    Given the heightened security concerns since September 11, 2001, which
                    have been emphasized in numerous recent Presidential Directives, there is an
                    immediate need for ARS to monitor its activities in the critical area of dual-
                    use research.

                    Lack of Criteria for Identifying Dual-Use Research

                    In general, the term “dual use” is used to describe research with a legitimate
                    scientific purpose that may be misused to pose a threat to public health or
                    national security. For example, knowledge gleaned from a project intended
                    to develop a vaccine could be used to create a more potent virus. Despite the
                    fact that many of ARS’ research projects are potentially dual use—we found
                    224 such projects during our review of ARS’ database—the agency has not
                    developed specific criteria for identifying dual-use research. According to

USDA/OIG-A/02601-1-Ch                                                                       Page 3
                                  ARS officials, since the concept of dual-use research is relatively new and
                                  NIH is developing guidance, the agency, which represents only a portion of
                                  the Federal research community, is reluctant to be at the forefront of such
                                  groundbreaking criteria.

                                  ARS officials’ hesitation to identify dual-use projects reflects the cautious
                                  approach toward dual-use research in the Federal government and in the
                                  scientific community at large. In 2003, the National Research Council
                                  (NRC), an independent society of scientists that advises the Federal
                                  Government, addressed what it termed the “dual-use dilemma” in a report
                                  called Biotechnology Research in an Age of Terrorism. 1 The NRC report
                                  emphasized the pressing need to develop criteria for identifying dual-use
                                  research as well as the challenges inherent in doing so. As a starting point,
                                  NRC proposed seven types of experiments involving infectious agents and
                                  their products that could be considered dual use. Specifically, NRC defined
                                  these “experiments of concern” as those that:

                                  1.    Demonstrate how to render a vaccine ineffective;
                                  2.    Confer resistance to therapeutically useful antibiotics or antiviral agents;
                                  3.    Enhance the virulence of a pathogen or render a nonpathogen virulent;
                                  4.    Increase transmissibility of a pathogen;
                                  5.    Alter the host range of a pathogen;
                                  6.    Enable the evasion of diagnostic/detection modalities; or
                                  7.    Enable the weaponization of a biological agent or toxin.

                                  Although biological research covers a much broader spectrum of experiments
                                  that could be considered dual use, NRC concluded that projects involving
                                  infectious agents pose the greatest threat. Some of ARS’ research projects
                                  involve select agents—a group of infectious agents that APHIS and the CDC
                                  have determined most seriously threaten human, animal, and plant health.
                                  (See exhibit A.) In fact, we identified 224 ongoing research projects
                                  involving select agents, such as avian influenza and bovine spongiform
                                  encephalopathy. (See Finding 3.) Scientists we spoke with also confirmed
                                  that ARS performs research that would fall under the seven NRC criteria.
                                  One scientist stated that his project met the NRC criteria because it involves
                                  select agents. Another scientist informed us that the project he was involved
                                  with met three of the seven NRC criteria.

                                  The NRC criteria, however, serve only as an initial step in addressing the
                                  dual-use dilemma.        To further refine the dual-use criteria, NRC
                                  recommended establishing a separate board made up of both scientists and
                                  policymakers. To that end, NIH formed the National Science Advisory
                                  Board for Biosecurity (the Board), on which representatives of fifteen Federal
                                  departments and agencies, including ARS, serve as a non-voting participants.

1
 The study was sponsored by the Sloan Foundation and the Nuclear Threat Initiative. NRC is the principal operating agency of the National
Academy of Sciences and the National Academy of Engineering. It is a private, nonprofit institution that provides scientific advice under a
congressional charter.
USDA/OIG-A/02601-1-Ch                                                                                                             Page 4
                   According to a Board official, the Board’s guidance regarding dual-use
                   research will be based on NRC’s list of “experiments of concern.” However,
                   the Board will not meet until June 30, 2005, and it has yet to establish
                   timeframes for issuing guidance.

                   The Department has signed a Memorandum of Agreement with HHS, in
                   which it agrees to consider the Board’s criteria for identifying dual-use
                   projects once it is developed. In our view, ARS officials should either adopt
                   the Board’s criteria or, if the criteria are not acceptable, seek guidance from
                   other authoritative scientific sources, such as the Office of Science and
                   Technology Policy. Until the Board issues criteria, ARS officials need to
                   take action to identify dual-use projects. One way would be to implement the
                   NRC’s criteria for the seven “experiments of concern.” As an alternative,
                   ARS officials could identify as dual use all projects involving select agents
                   and toxins on the APHIS/CDC list. (See exhibit A.) Focusing on select
                   agents would allow ARS to identify, in a streamlined fashion, projects with
                   the most serious dual-use implications until the Board finalizes Government-
                   wide criteria.

                   Lack of Approval and Monitoring Procedures for Dual-Use Research

                   Because ARS officials have no criteria for identifying dual-use research, the
                   approval and monitoring processes do not specifically identify dual-use
                   projects. The Board’s charter states that it will develop guidelines for
                   approval and oversight of dual-use research, including publication of dual-
                   use research results. However, ARS officials should take interim steps to
                   ensure that it adequately addresses the unique risks of dual-use research when
                   it approves projects and while they are underway.

                   Currently, ARS officials review and approve research project proposals based
                   on the scientific merit of the research and whether it supports the agency’s
                   mission. As part of the review and approval process, ARS officials need to
                   determine if projects are dual use based on the available criteria, such as the
                   NRC “experiments of concern” or the use of select agents. Once it deems a
                   project “dual use,” ARS officials should evaluate the project to determine if
                   the potential benefits of the research outweigh its risk of misuse.

                   Upon approval of a dual-use project, ARS officials should also consider if
                   scientific manuscripts resulting from the project should undergo additional
                   review prior to publication, in order to prevent release of sensitive
                   information. In some instances, it may be necessary to delay or prohibit
                   publication of research results. To institute these additional controls over
                   dual-use projects, ARS will need to include a biosecurity expert on the
                   review panel to counsel agency managers during the review and approval
                   process.



USDA/OIG-A/02601-1-Ch                                                                      Page 5
                   Once it approves dual-use projects, ARS officials should monitor those
                   projects closely while they are underway to ensure that the research is
                   proceeding according to the original objectives. In the case of dual-use
                   research, departures from the original proposal may present new risks that the
                   approval panel did not foresee. Currently, ARS scientists submit annual
                   reports to agency headquarters detailing the progress of all research projects,
                   including major accomplishments and resulting publications. However, our
                   conclusion is that more frequent reporting is necessary for dual-use research
                   projects. In addition, scientists working on dual-use projects should formally
                   notify ARS headquarters when deviations from the approved objectives or
                   other significant events occur. Headquarters personnel should then verify the
                   reports, determine if any new risks have arisen, and evaluate whether the
                   project should continue.

                   To maintain accountability for dual-use research, ARS officials need to
                   develop and incorporate these approval and monitoring controls into agency
                   policies. Upon issuance of the Board’s guidelines, ARS officials should
                   reevaluate the approval and monitoring procedures for dual-use projects to
                   ensure that they reflect the Board’s guidance.

                   ARS research leads to numerous beneficial discoveries in science and
                   technology, and we recognize the need to avoid undue restrictions on the
                   agency’s important work. However, in the interest of national security, ARS
                   must recognize and address the potential negative applications of the
                   scientific knowledge it uses and creates. Identifying, thoroughly reviewing,
                   and monitoring dual-use projects are critical steps in ensuring that ARS
                   research contributes only to the advancement of science, not to terrorist
                   activity.

Recommendation 1
                   Formalize in agency policies and procedures the criteria for identifying dual-
                   use projects when it is issued by the Board; or seek guidance from other
                   authoritative sources, such as the Office of Science and Technology Policy.

                   ARS Response

                   ARS will develop policies and procedures adopting the Board’s
                   recommendations when they are issued. If necessary, ARS will engage an
                   office such as the Office of Science and Technology Policy to discuss
                   proposed recommendations and seek guidance on implementation of the
                   Board’s recommendations. In the interim, as stated in response to
                   Recommendations 2 and 3, ARS will issue a memorandum by the end of the
                   year that will provide guidance on procedures for the review and monitoring
                   of sensitive research projects which qualify as “experiments of concern,” as
                   defined by the National Research Council of the National Academies.



USDA/OIG-A/02601-1-Ch                                                                      Page 6
                   OIG Position

                   Based on the uncertainty as to the issuance of the Board’s recommendations
                   and on ARS’ agreement to issue interim guidance using the definitions issued
                   by the National Research Council of the National Academies, we accept
                   ARS’ management decision for this recommendation. Final action will be
                   completed once ARS provides the Office of the Chief Financial Officer
                   (OCFO) a copy of the interim guidance.

Recommendation 2
                   Until the Board develops criteria, establish policies and procedures to identify
                   dual-use research using the NRC criteria; or, alternatively, consider all
                   research projects involving select agents as candidates for the dual-use
                   designation.

                   ARS Response

                   Until the Board develops criteria for identifying dual-use research projects,
                   ARS will use interim criteria to define and identify sensitive research
                   projects. The interim criteria will be based upon the seven classes of
                   experiments involving infectious agents and their products, defined as the
                   seven “experiments of concern” by the National Research Council of the
                   National Academies. As stated in response to Recommendation 3, ARS will
                   issue a memorandum by the end of the year.

                   OIG Position

                   We accept ARS’ management decision on this recommendation. Final action
                   will be completed once ARS provides OCFO a copy of the interim guidance.

Recommendation 3
                   Develop procedures to evaluate the potential risks of dual-use research
                   projects as part of the approval process, including whether pre-publication
                   review of research results is appropriate.

                   ARS Response

                   Until the Board issues guidance, the ARS Administrator is planning to issue a
                   memorandum that will provide guidance on procedures for the review and
                   monitoring of sensitive research projects which qualify as “experiments of
                   concern” under the interim criteria described in the ARS response to
                   Recommendation 2. This memorandum should be issued by the end of the
                   year. When the Board establishes criteria, ARS will develop procedures
                   based on those recommendations.




USDA/OIG-A/02601-1-Ch                                                                       Page 7
                   OIG Position

                   We accept ARS’ management decision for this recommendation. Final action
                   will be completed once ARS provides OCFO a copy of the interim guidance.

Recommendation 4
                   Require ARS scientists working on dual-use projects to immediately report
                   any significant events or deviations from the approved objectives to
                   headquarters, which should verify the reports and reevaluate the projects as
                   necessary.

                   ARS Response

                   ARS currently has procedures which necessitate internal review of all
                   projects when significant deviations from approved project objectives are
                   made to project plans. Significant changes in project/program objectives are
                   documented by the National Program Staff through the issuance of Program
                   Direction and Resource Allocation Memos (PDRAMs). In addition to
                   internal oversight and review of such changes, significant changes may also
                   result in additional external peer review.

                   OIG Position

                   We do not accept ARS’ management decision for this recommendation.
                   ARS’ current procedures do not address deviations that occur during the
                   course of ongoing research. We are concerned that ARS managers will not be
                   made aware of significant events or deviations from approved objectives in a
                   timely manner. At the time of our audit, scientists submitted annual reports to
                   Headquarters, which could be a considerable time after a significant event
                   occurred. We believe that scientists should be required to immediately report
                   such events and that more frequent reporting is necessary. To reach a
                   management decision for this recommendation, ARS needs to address this
                   issue.

Recommendation 5
                   Develop monitoring procedures for dual-use projects, and ensure that they
                   reflect the Board’s guidance, when issued.

                   ARS Response

                   ARS’ line management and the National Program Staff will be involved in
                   developing procedures which will reflect the Board’s guidance upon issuance.
                   In response to Recommendation 3, ARS described its approach to developing
                   interim procedures. ARS stated that the interim guidance should be issued by
                   the end of the year.


USDA/OIG-A/02601-1-Ch                                                                      Page 8
                   OIG Position

                   We accept ARS’ management decision for this recommendation. Final action
                   will be completed once ARS provides OCFO a copy of the interim guidance.




USDA/OIG-A/02601-1-Ch                                                               Page 9
Section 2. Transfer of Sensitive Information

                     In the scientific community, free and open exchange of information among
                     scientists is considered essential to advances in research. For this reason,
                     ARS posts research descriptions and results, including those involving
                     sensitive information about select agents and toxins, on the Internet, which
                     conflicts with Departmental regulations that require agencies to safeguard
                     sensitive information. ARS collaborates with many non-Government
                     scientists, particularly scientists in universities and research centers with
                     expertise in areas related to ARS projects and programs. ARS encourages
                     non-Government scientists to collaborate in joint research projects, some of
                     which could involve sensitive information. In conjunction with some
                     collaborative projects, ARS officials do not look into the backgrounds of all
                     non-Government scientists. Some agency officials believe that requiring such
                     checks would deter scientists from contributing to ARS research. In addition,
                     ARS officials do not have policies and procedures for maintaining the names
                     of non-Government scientists and, therefore, was unaware of how many were
                     collaborating on research projects.

                     We agree that unnecessary barriers over the exchange of scientific
                     information could impede the progress of beneficial research. However,
                     sharing knowledge about sensitive research, which could be used by
                     questionable individuals for illicit purposes, is an even greater danger.




Finding 2            ARS Does Not Check All Non-Government Scientists for Security
                     Suitability

                     ARS officials do not check the backgrounds of all non-Government scientists
                     that collaborate on ARS research projects involving sensitive knowledge, nor
                     is the agency aware of how many such scientists are involved in those
                     projects. Agency officials informed us that they had not obtained the detailed
                     personal information necessary to perform security suitability determinations
                     because of concern that non-Government scientists would be deterred from
                     collaborating on research projects, and because of the considerable time and
                     expense of performing extensive suitability determinations. As a result, non-
                     Government scientists with questionable backgrounds may be able to obtain
                     unique knowledge about select biological agents and other sensitive scientific
                     research through participation in agency projects.

                     ARS officials lack policies and procedures for maintaining the names of non-
                     Government scientists participating on research projects, and for obtaining
                     other information necessary to determine security suitability. Also, ARS
                     officials check the background of non-Government scientists only when they

USDA/OIG-A/02601-1-Ch                                                                      Page 10
                   will physically enter an agency facility, such as a BSL-3 laboratory. In these
                   instances, ARS officials perform a security suitability determination based on
                   the perceived level of risk for the position; as the level of risk increases, so
                   does the depth of the background review. For example, a National Agency
                   Check with Inquiry might be appropriate for an individual with little or no
                   access to sensitive areas of a facility. For individuals with access to more
                   sensitive areas, ARS officials would perform either a Limited Background
                   Investigation or a Background Investigation. (See the Glossary of Terms for
                   a description of these suitability determinations.)

                   ARS scientists work with non-Government scientists in numerous types of
                   collaborative research projects. For all types of projects, researchers working
                   at different locations share with each other the details of their experiments,
                   findings, and conclusions. In most instances, sharing information with non-
                   Government scientists is not a concern because the project does not involve
                   dual-use research. However, some ARS research involves select biological
                   agents and other types of experimentation that could be used for
                   illicit/harmful purposes. In these instances, information should not be shared
                   with non-Government scientists whose backgrounds are unknown. An
                   agency official informed us that it is not uncommon for ARS scientists and
                   non-Government scientists to agree to pursue collaboration after meeting at
                   scientific symposiums and conferences. Thus, in some instances, ARS
                   scientists may know very little about the background of individuals they will
                   be working with on a project.

                   In fact, agency officials were unable to provide us with the number of non-
                   Government scientists collaborating on ARS research projects. To gain an
                   approximate idea of how many non-Government scientists were participating
                   in ARS research, we interviewed scientists involved with the 10 sensitive
                   research projects included in our review. Our inquiries disclosed that, on
                   those 10 projects, ARS scientists were working with at least 130 non-
                   Government scientists. (This number is based solely on the scientists’
                   recollection and willingness to provide the names of non-Government
                   scientists. The exact number could be higher or lower because it is based on
                   anecdotal information from a portion of ARS scientists on each project.)
                   ARS officials confirmed that this number was typical for agency research
                   projects. Since ARS is involved in at least 224 projects that could be dual use
                   in nature (see Finding 3), the number of non-Government scientists working
                   with ARS on sensitive projects could be significant.

                   We also found that some of the non-Government scientists working on the
                   sensitive projects in our review were from countries of concern, a DOC
                   distinction for countries where caution should be used in sharing information.
                   (See Finding 4.) Determining the security suitability of these scientists would
                   reduce the risk that sensitive information will be shared with questionable
                   individuals.


USDA/OIG-A/02601-1-Ch                                                                     Page 11
                   Some ARS officials agreed with our assessment, but expressed concern that
                   requiring non-Government scientists to submit personal information for
                   suitability determinations would deter them from collaborating on research
                   projects. They stated that non-Government scientists are reluctant to undergo
                   extensive background investigations in order to be involved in collaborative
                   research. ARS officials also stated that performing suitability determinations
                   could be costly and time consuming, especially with the number of non-
                   Government scientists working on research projects.

                   Numerous types of checks can be performed to determine the security
                   suitability of non-Government scientists. For projects involving sensitive
                   research, ARS officials need to develop criteria and procedures for deciding
                   the appropriate type of suitability determination to be performed on non-
                   Government scientists. The criteria should equate the level of risk to the
                   appropriate security suitability determination.      For example, a non-
                   Government scientist whose involvement in a project will be minimal, and
                   will not include access to sensitive information, may not pose a serious risk
                   and would not need a suitability determination. In contrast, a non-
                   Government scientist who will have access to unique knowledge related to a
                   select biological agent may need a comprehensive background investigation.
                   The type of analysis currently performed for individuals gaining access to
                   ARS facilities may be sufficient for non-Government scientists working on
                   agency research from distant locations.

                   The issue of suitability determinations is particularly troubling to ARS
                   officials, and the scientific community at large, because it could cause delays
                   in completing research within desired timeframes. However, ARS’ current
                   policy, which limits suitability determinations of non-Government scientists
                   to those who will have physical access to ARS facilities, is not enough.
                   While it is critical to prevent questionable individuals from obtaining select
                   agents such as Bacillus anthracis, avian influenza virus, and exotic Newcastle
                   disease, the unique knowledge of how to manipulate those pathogens may
                   pose the greatest danger.

Recommendation 6
                   Develop policy and procedures for obtaining personal information from all
                   non-Government scientists involved in sensitive research projects in order to
                   perform security suitability determinations.

                   ARS Response

                   ARS will work with the Office of the General Counsel to develop the most
                   effective and appropriate approach for obtaining personal information for all
                   non-government scientists working on sensitive research projects as defined
                   by ARS interim guidance.



USDA/OIG-A/02601-1-Ch                                                                    Page 12
                   OIG Position

                   We agree with ARS’ proposed corrective action. To reach management
                   decision, ARS needs to provide a timeframe for completion of this action.

Recommendation 7
                   Maintain a list of all participating non-Government scientists for each
                   sensitive research project.

                   ARS Response

                   ARS will develop a centralized system, with management oversight, to
                   maintain and periodically review a roster of all non-government scientists
                   working on sensitive research projects defined by ARS interim guidance.

                   OIG Position

                   We agree with ARS’ proposed corrective action. To reach management
                   decision, ARS needs to provide timeframes for the development and
                   implementation of the centralized system and procedures to conduct periodic
                   reviews.

Recommendation 8
                   Develop and implement policy and procedures for establishing, based on risk
                   factors, appropriate security suitability determinations for all non-
                   Government scientists involved in sensitive research projects.

                   ARS Response

                   ARS will develop policies and procedures to address both the risk factors and
                   the appropriate security suitability requirements for non-government
                   scientists involved in sensitive research projects defined by ARS interim
                   guidance. These procedures will be reviewed by the Office of the General
                   Counsel.

                   OIG Position

                   We agree with ARS’ proposed corrective action. To reach management
                   decision, ARS needs to provide timeframes for the development and
                   implementation of the policies and procedures.




USDA/OIG-A/02601-1-Ch                                                                   Page 13
Finding 3                          ARS Makes Sensitive Research Information Available to the
                                   Public on the Internet

                                   ARS posts sensitive information—including the names of scientists working
                                   with select agents—on its Internet website, where it is easily accessible to the
                                   public. This practice conflicts with Departmental regulations2, which require
                                   agencies to define, identify, and protect sensitive security information (SSI).
                                   However, ARS officials have not established policy and procedures to
                                   comply with these requirements. As a result, knowledge about sensitive
                                   research, particularly projects involving select agents and toxins, can be
                                   readily obtained by questionable individuals and used for subversive
                                   activities.

                                   Departmental regulations 2 require agencies to establish criteria for
                                   identifying, and to implement security measures to protect, SSI—unclassified
                                   information of a sensitive nature that, if publicly disclosed, could have a
                                   harmful impact on public health and safety. Based on this definition,
                                   information about select agents and toxins and other potential dual-use
                                   research could be classified as SSI.

                                   We found that ARS officials have not defined SSI or developed sufficient
                                   criteria for what can and cannot be released on its Internet website or the
                                   Current Research Information System (CRIS) database, a publicly available
                                   resource maintained by the Cooperative State Research, Education, and
                                   Extension Service, another USDA agency. According to agency officials,
                                   ARS scientists are required to take annual biosecurity awareness training.
                                   Scientists working on individual research projects use their judgment to
                                   decide if material is appropriate to post online.

                                   Although the scientific community values the open exchange of research
                                   information and results, we concluded that some of the technical data that
                                   ARS includes online could be manipulated for harmful/destructive purposes
                                   and should not be readily available to the public. This issue was addressed
                                   by a White House memorandum dated March 19, 2002, which emphasized
                                   each agency’s “obligation to safeguard Government records…that could
                                   reasonably be expected to assist in the development or use of weapons of
                                   mass destruction.”

                                   We found, however, that the ARS website and the CRIS database included
                                   detailed descriptions of 224 ongoing research projects that involve select
                                   agents. (There were over 3,400 ongoing research projects as of October
                                   2004.) For example, numerous projects involved avian influenza virus, a

2
    Department Regulation 3440-2, Section 8 (a and c), dated January 30, 2003.
USDA/OIG-A/02601-1-Ch                                                                                     Page 14
                                    select agent that is known to be zoonotic and has a 72-percent mortality rate
                                    in humans. The details of these projects—including descriptions of
                                    conditions that promote the transition of non-pathogenic strains to highly
                                    pathogenic strains—were posted on ARS’ website. According to the seven
                                    NRC criteria, these projects would be considered “experiments of concern”
                                    because they could be used to “enhance the virulence of a pathogen or render
                                    a nonpathogen virulent.”

                                    The ARS website also included abstracts of scientific manuscripts dealing
                                    with dual-use research. The website cited the journals where specific details
                                    of the experiments, and results of those experiments, were published by the
                                    research team.

                                    We also found that, while Departmental regulations 3 cite “information that
                                    could result in physical risk to individuals” as an example of SSI, ARS did
                                    not exclude the names of scientists working with select agents from its
                                    website or the CRIS database. All of the 224 research projects we identified
                                    as involving select agents listed the names of the scientists working on the
                                    projects, and the locations where the research was being performed. By
                                    identifying the names and locations of scientists working with select agents,
                                    ARS may unintentionally make those researchers a target for hostile
                                    individuals attempting to gain access to or knowledge of a select agent.

                                    ARS officials issued a memorandum dated April 28, 2003, directing that all
                                    projects containing select agent names in the objective or approach section of
                                    the project summary be removed from the Internet. The memorandum also
                                    instructed ARS officials to remove detailed descriptions of researchers’
                                    expertise involving select agents and detailed descriptions of laboratory
                                    techniques used to investigate sensitive research areas. According to ARS
                                    officials, the agency identified over 200 project listings on the ARS website
                                    that contained such information. However, they removed the information
                                    from only 7 of the more than 200 listings. None of the numerous ARS
                                    officials we interviewed could explain why the agency had not fully complied
                                    with the memorandum’s instructions. According to ARS staff, an official no
                                    longer with the agency determined that the select agent information specified
                                    in the memorandum was not sensitive and did not need to be removed from
                                    the ARS website. However, we could not substantiate those statements.

                                    ARS officials informed us that they are currently in the process of developing
                                    criteria for identifying SSI. However, they were unable to provide a
                                    timeframe for developing the criteria and implementing security procedures
                                    to comply with Departmental regulations.




3
    Departmental Regulations 3440-2, Section 6 (b), dated January 30, 2003.
USDA/OIG-A/02601-1-Ch                                                                                     Page 15
Recommendation 9
                    Remove from the Internet all information regarding select agents, the names
                    of individuals authorized to use them, and the location where they could be
                    found.

                    ARS Response

                    It is ARS’ view that the benefit of having information on select agents
                    available to the public on the Internet, in many cases, outweighs the risk of
                    having such information accessible to a minority segment of the public that
                    might misuse the information. In addition, regardless of whether the
                    information is publicly available on the Internet, it is still likely to be readily
                    available through scientific literature. In those instances where ARS judges
                    that the dangers outweigh the benefits, ARS will not release such information
                    on the Internet. As the Board develops additional guidelines, ARS will take
                    whatever steps are needed to be in compliance with the Board’s guidance.

                    OIG Position

                    We do not accept management decision for this recommendation. While we
                    agree that the scientific community values the open exchange of research
                    information, we do not believe ARS should be making this type of sensitive
                    information readily available on the Internet. We believe that the disclosure
                    of this type of sensitive information, particularly when it pertains to select
                    agents, goes against the intent of the Public Health Security and
                    Bioterrrorism Preparedness and Response Act of 2002 (Public Law 107-188)
                    to protect such information from those who might use it for the “wrong”
                    purpose. The Act specifically forbids Federal agencies from disclosing any
                    information submitted under the Act. That non-disclosure provision includes
                    information that would identify the select agents involved or the identity or
                    location of the person possessing the select agents; this information is
                    comparable to what ARS currently makes publicly available on the Internet.
                    To reach a management decision, we need to know when the criteria for
                    removal of this information from the Internet will be developed and
                    implemented in agency policy.

Recommendation 10
                    Develop criteria for identifying SSI and implement procedures to ensure this
                    information is not included on the Internet.

                    ARS Response

                    ARS will continue to make every effort to ensure that sensitive security
                    information (SSI) is not included on the Internet. However, this effort will be
                    consistent with guidance from the Board and the standard operating
                    procedure of the academic community working in this area. The effort also
USDA/OIG-A/02601-1-Ch                                                                         Page 16
                   will be guided by the availability of such information elsewhere and from
                   other sources. Even if such information is not included by ARS on the
                   Internet, it may be readily available in published literature, from other
                   Internet sources, and from abstracting services and databases.

                   OIG Position

                   The response did not address the recommendation. Therefore, we cannot
                   reach management decision for this recommendation.            To reach a
                   management decision, ARS needs to develop criteria for identifying SSI, and
                   implementing security features for complying with Departmental regulations
                   restricting information that can be placed on the Internet.




USDA/OIG-A/02601-1-Ch                                                                 Page 17
Section 3. Deemed Export Licenses



Finding 4                         ARS Shares Sensitive Information with Foreign Scientists
                                  Without Applying for Deemed Export Licenses

                                  Although ARS scientists routinely share sensitive information with foreign
                                  scientists, some from countries of concern, the agency had not applied for
                                  deemed export licenses issued by DOC, which controls the transfer of such
                                  information between the U.S. and other nations. ARS officials have not
                                  developed policy and procedures to apply for the deemed export licenses
                                  because agency officials incorrectly assumed that since they intend to publish
                                  all research results, they were not subject to DOC deemed export
                                  requirements. In fact, certain “controlled” information ARS uses to conduct
                                  some experiments is subject to deemed export license regulations, regardless
                                  of whether ARS plans to publish the research results. Furthermore, once
                                  ARS officials begin identifying dual-use research, some research results may
                                  not be published at all. Until it takes steps to comply with deemed export
                                  regulations, ARS may be providing foreign countries with sensitive dual-use
                                  information, such as methods for manipulating select agents.

                                  DOC’s Export Administration Regulations 4 (EAR) outline the requirements
                                  for deemed export licenses.          Under the EAR, specific unpublished
                                  information necessary for the development, production, or use of a product is
                                  considered “controlled”—for example, unpublished information related to the
                                  use of a select agent 5 6 . DOC officials also consider the home country of the
                                  foreign scientist when determining the need for a deemed export license.
                                  DOC has identified seven “countries of concern,” or the nations that pose the
                                  greatest threat of misusing controlled information. These countries include
                                  Iran, Syria, and China.

                                  According to the EAR, a deemed export license is not required if the research
                                  being conducted is “fundamental”—that is, basic and applied research whose
                                  results are typically published and shared broadly within the scientific
                                  community. However, according to DOC officials, all fundamental research
                                  is not exempt from deemed export license requirements. The fundamental
                                  research exception applies only to information that arises during or results
                                  from the research (emphasis added). The exception does not apply if
                                  controlled information is used as an input to the research, regardless of
                                  whether the results will be published.



4
  Title 15, Code of Federal Regulations, Chapter 7, Section 734.1, Part (a), dated December 9, 2004.
5
  Title 15, Code of Federal Regulations, Chapter 7, Section 772.1, dated March 10, 2005.
6
  Title 15, Code of Federal Regulations, Chapter 7, Supplement No. 2, Section 774, Part 1, dated July 30, 2004.
USDA/OIG-A/02601-1-Ch                                                                                             Page 18
                   Export Licenses Needed for Research Using Controlled Information

                   Of the 10 ARS research projects we reviewed, 8 used select agent
                   information, some of which may have been previously unpublished, as
                   inputs. In 5 of those projects, there were eight foreign scientists, two of
                   whom were from countries of concern, working in ARS facilities. ARS
                   officials had not applied for deemed export licenses for any of the five
                   projects.

                   Based on our concern that ARS could be improperly sharing information with
                   foreign scientists, we informed DOC officials that the projects in our sample
                   used select agents and involved foreign scientists. Upon hearing this, a DOC
                   official said that a deemed export license might have been required in each
                   case. Although the official cautioned that multiple factors determine if a
                   deemed export license is needed, ARS officials may have been required to
                   submit the projects for DOC review based on the nature of the projects and
                   the foreign scientists’ home countries.

                   The number of foreign scientists involved in the projects we reviewed is not
                   atypical for ARS research. ARS officials informed us that the agency
                   frequently works with scientists from countries of concern. For example,
                   ARS collaborates extensively with Chinese scientists on disease research
                   that, in some instances, involves the use of select agents. Despite the
                   agency’s substantial involvement with foreign collaborators, we learned that
                   ARS officials had not applied for deemed export licenses for any of the joint
                   research involving controlled information it conducts with foreign scientists.

                   ARS officials told us that, because the agency intends to publish all of its
                   research results, ARS projects are considered “fundamental research” and are
                   therefore exempt from deemed export requirements. However, in the EAR,
                   the fundamental research exemption does not apply to controlled information
                   used in the course of conducting research. ARS officials need to develop a
                   formal policy and procedures for submitting research projects involving
                   controlled information to DOC for deemed export licenses.

                   ARS officials, through the Office of Technology Transfer, work with the
                   DOC on export license requirements of the EAR, relating to the transfer of
                   select agent materials to foreign countries. According to ARS officials, nine
                   export license requests for materials have been submitted since March 2003.
                   Eight have been approved, and one judged to be unnecessary. Several
                   additional applications are in preparation for submission to DOC. ARS
                   officials have developed policies and procedures for these types of export
                   licenses. The modification of these policies and procedures could be used for
                   deemed export requirements.




USDA/OIG-A/02601-1-Ch                                                                    Page 19
                    Research Designated as Dual Use May Require an Export License

                    Once ARS officials begin identifying and monitoring dual-use projects, as
                    discussed in Finding 1, some research results may not be published, making
                    those projects subject to deemed export requirements. For instance, ARS
                    scientists could be involved in research resulting in a scientific breakthrough
                    that is sensitive in nature. If ARS managers decide not to publish the results,
                    and there are foreign scientists involved in the project, it will be too late to
                    obtain a deemed export license and prevent the transfer of potentially
                    dangerous knowledge.

                    To date, ARS officials have operated under the assumption that all of its
                    projects are exempt from deemed export requirements, overlooking the fact
                    that controlled information used in the course of research is subject to the
                    EAR. As the agency begins to identify dual-use research, and place
                    restrictions on publishing results, more ARS projects will likely require
                    deemed export licenses. In an environment of heightened national security
                    concerns, ARS officials need to enhance its current policy and procedures for
                    submitting those projects to DOC so that deemed export determinations can
                    be made prior to giving foreign scientists access to sensitive information.

Recommendation 11
                    Implement policy and procedures for submitting deemed export applications
                    to DOC prior to initiating dual-use research projects, and projects with
                    controlled information, involving foreign scientists working either in an ARS
                    facility or from another location.

                    ARS Response

                    ARS is developing policy and procedures on deemed export licenses and is
                    working directly with the Department of Commerce (DOC) and with other
                    Federal agencies on a task group to address common issues on deemed export
                    policy, including proposed changes to the requirements. The Agency will
                    develop and implement interim guidance on obtaining deemed export
                    licenses. This guidance will be updated when final deemed export
                    requirements are issued by the DOC and when the Board’s recommendations
                    are issued.

                    OIG Position

                    We agree with ARS’ proposed corrective action. To reach management
                    decision, ARS needs to provide a timeframe for the development and
                    implementation of the interim guidance on obtaining deemed export licenses.




USDA/OIG-A/02601-1-Ch                                                                      Page 20
Scope and Methodology
                   Our audit was conducted at the ARS National Offices in Washington, D.C.,
                   and Beltsville, MD, and at three research facilities located in Beltsville, MD;
                   Ames, IA; and Athens, GA. We selected these sites based on the number of
                   potential dual-use research projects. We conducted our fieldwork from
                   December 2004 through April 2005.

                   To gain knowledge about laws, regulations, and guidance related to dual-use
                   research, we interviewed officials from USDA and NIH. We also reviewed
                   the National Academy of Sciences report, “Biotechnology Research in an
                   Age of Terrorism,” issued in October 2003.

                   To determine if ARS was adequately identifying, approving, and monitoring
                   dual-use research, we reviewed agency policies and procedures. We also
                   judgmentally selected for in-depth reviews 10 ongoing research projects
                   (from 3,431 as of October 2004) that we judged to be dual use in nature.
                   (See exhibit B.) We considered the use of select agents as a key factor in
                   identifying potential dual-use research projects. The 10 selected projects
                   were located at the 3 ARS facilities listed above.

                   To determine if ARS was ensuring that dual-use technology was not
                   inappropriately disseminated to the public, we evaluated information related
                   to the 3,431 ongoing USDA research projects that was available on the CRIS
                   Internet database. We also reviewed 1,043 abstracts of manuscripts dealing
                   with rDNA that were available on ARS’ website. (The search engine for
                   these manuscripts did not allow us to obtain a universe number.)

                   To accomplish our objectives, we performed the following procedures:

                   •    Reviewed applicable laws, regulations, and guidance concerning the
                        transfer of sensitive (dual-use) technology to the public;
                   •    Reviewed ARS’ policies, procedures, and administrative controls related
                        to identifying, approving, and monitoring projects involving dual-use
                        research;
                   •    Examined files and other agency records, including information posted
                        on the Internet, for selected research projects;
                   •    Interviewed agency scientists and officials responsible for performing
                        research and monitoring the activities of collaborating scientists; and
                   •    Interviewed officials from the NIH and DOC.

                   We conducted our audit in accordance with generally accepted Government
                   auditing standards.


USDA/OIG-A/02601-1-Ch                                                                    Page 21
Exhibit A – APHIS and CDC List of Select Agents




USDA/OIG-A/02601-1-Ch                             Page 22
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 5




USDA/OIG-A/02601-1-Ch                      Page 23
Exhibit B – Agency Response
                              Exhibit B – Page 2 of 5




USDA/OIG-A/02601-1-Ch                      Page 24
Exhibit B – Agency Response
                              Exhibit B – Page 3 of 5




USDA/OIG-A/02601-1-Ch                      Page 25
Exhibit B – Agency Response
                              Exhibit B – Page 4 of 5




USDA/OIG-A/02601-1-Ch                      Page 26
Exhibit B – Agency Response
                              Exhibit B – Page 5 of 5




USDA/OIG-A/02601-1-Ch                      Page 27
Glossary of Terms
                                                                                        Page 1 of 2


Applied research       Original investigation undertaken to acquire new knowledge and directed
                       primarily toward a specific practical aim or objective.

Background
Investigation          This is a more in-depth version of the Limited Background Investigation
                       (LBI) since the personal investigation coverage is the most recent five to
                       seven years. This investigation is required of those going into “high risk”
                       public trust positions.

Basic research         Experimental or theoretical work undertaken primarily to acquire new
                       knowledge of the underlying foundation of phenomena and observable facts,
                       without any particular use in view.

Biosafety levels       Combinations of laboratory practices and techniques, safety equipment, and
                       laboratory facilities appropriate for the operations performed and are based
                       on the potential hazards imposed by the agents used and for the laboratory
                       function and activity. Biosafety Level 4 provides the most stringent
                       conditions, Biosafety Level 1 the least stringent.

Biotechnology          The application of biological research techniques to the development of
                       products that improve human health, animal health, and Agriculture.

Bioterrorism           The use of biological agents, such as pathogenic organisms or agricultural
                       pests, for terrorist purposes.

Collaborate            To work together, especially in a joint intellectual effort.

Deemed export          Any release of technology or source code subject to the EAR to a foreign
                       national is deemed to be an export to the home country or countries of the
                       foreign national.

Dual-use technology    Research involving specialized knowledge that has both a legitimate,
                       intended use and the potential to be used for illicit/harmful purposes.

Fundamental research   The DOC term for basic and applied research where the resulting information
                       is published and shared broadly within the scientific community.




USDA/OIG-A/02601-1-Ch                                                                      Page 28
Limited Background
Investigation           This investigation includes a National Agency Check and Inquiries (NACI),
                        personal subject interview, and personal interviews by an investigator of
                        subject’s background during the most recent three years.

National Agency
Check (NAC)             An integral part of all background investigations, consisting of searches of
                        the Office of Personnel Management Security/Suitability/Investigations
                        Index, the Defense Clearance and Investigations Index, the Federal Bureau of
                        Investigations Identification Division’s name and fingerprint files, and other
                        files or indices when necessary.

National Agency Check
And Inquiries         The basic and minimum investigation required on all new Federal employees
                      consisting of a NAC with written inquiries and searches of records covering
                      specific areas of an individual’s background during the past 5 years (inquiries
                      sent to current and past employers, schools attended, references, and local
                      law enforcement authorities).

Pathogen                Any disease-producing organism.

Recombinant
Deoxyribonucleic Acid
(rDNA)                Genetically engineered DNA prepared by transplanting or splicing genes
                      from one species into the cells of a host organism of a different species. Such
                      DNA becomes part of the host’s genetic makeup and is replicated.

Select biological
agents                  A group of infectious agents, established by APHIS and CDC, that most
                        seriously threaten human, animal, and plant health.

Sensitive security
information             Unclassified information of a sensitive nature that, if publicly disclosed,
                        could have a harmful impact on public health and safety.

Suitability
determination           Decision made on the level of security clearance granted to an individual
                        based on background information.

Toxin                   Any of a group of poisonous, usually unstable, compounds generated by
                        microorganisms, plants, or animals.

Zoonotic                Type of pathogen that can cause disease and death in both humans and
                        animals.




USDA/OIG-A/02601-1-Ch                                                                        Page 29
Informational copies of this report have been distributed to:

Administrator, ARS
       Agency Liaison Officer                                   (6)
General Accountability Officer                                  (1)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division           (1)
